HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Indiana and Illinois for July 1,
2005, Through June 30, 2006 - Indiana Family and Social Services
Administration," (A-05-06-00070)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Indiana and Illinois
for July 1, 2005, Through June 30, 2006 - Indiana Family and Social Services
Administration," (A-05-06-00070)
January 25, 2008
Complete
Text of Report is available in PDF format (535 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Indiana Family and
Social Services Administration (the State agency) made
payments on behalf of beneficiaries who should not have been Medicaid-eligible
due to their eligibility in Illinois.  For the period July 1, 2005, through June
30, 2006, we estimate that the State agency paid $236,578 ($148,936 Federal
share) for Medicaid services provided to beneficiaries who should not have been
eligible because of their Medicaid eligibility in Illinois.
We recommended that the State agency work with the Illinois
Medicaid agency to share available Medicaid eligibility information for use in
(1) determining accurate beneficiary eligibility status and (2) reducing the
amount of payments, estimated to be $236,578 ($148,936 Federal share), made on
behalf of beneficiaries residing in Illinois.  The State agency agreed with the
recommendations.